OIG Audit Report 99-15
Office of Justice Programs Safefutures:  Partnerships to Reduce Youth Violence and Delinquency
Report No. 99-15
April 1999
Office of the Inspector General
EXECUTIVE SUMMARY
SafeFutures:  Partnerships to Reduce Youth Violence and Delinquency (SafeFutures) is a five-year demonstration grant program to help six competitively selected communities reduce juvenile delinquency by implementing a continuum of care consisting of prevention, intervention, treatment, and graduated sanctions programs for at-risk and delinquent youth.  Each grantee will receive up to $1.4 million per year, for a total of about $7 million, to implement nine specific program components and reform its existing service delivery system.  Total program costs will be about $42 million.
The program is administered by the Office of Justice Programs' (OJP) Office of Juvenile Justice and Delinquency Prevention (OJJDP), with support from the Office of the Comptroller (OC).  Our audit focused on program design, the grant selection and award process, and OJP's management of the program.  The audit focused on the period from September 1994 through January 1998.
Overall, we recognize OJJDP's efforts to create an innovative program with the potential to effect real change in communities, and we commend OJJDP's stated desire to work in partnership with the grantees to make the program work.  However, we found the following areas where improvements are warranted.
The SafeFutures program is extremely complex.  There are nine program components with specific requirements to implement, a systems change effort to pursue, and numerous statutory fiscal and program restrictions.  Although OJJDP tried to be flexible where possible, it should consider obtaining enabling legislation or funding that will allow it to design future comprehensive programs with more programmatic and fiscal flexibility than the SafeFutures program allowed.
The solicitation, selection, and award processes for SafeFutures grants were generally in compliance with established requirements and procedures, and the selection of the grantees was fair.  However, due to a missed publication deadline, a federal government furlough, and greater than expected start-up problems, grantees did not receive final clearance to expend first-year grant funds until almost a full year from the award date.  The first budget year of the program was extended for an additional year for most grantees to allow them to spend their funds before receiving second-year funds, making SafeFutures at least a six -- instead of five -- year program.  To potentially minimize these delays in the future, OJJDP should meet the program publication deadline.  For particularly complex grant programs, OJJDP should include planning periods before program start-up, as OJJDP officials told us they have now done for two grant programs initiated after SafeFutures.
Program monitoring controls are weak.  While program monitoring does occur, OJJDP program managers are not adhering specifically to the monitoring plans, and their monitoring efforts are neither consistent nor consistently documented.  As a result, it is difficult to determine from the files the level of monitoring that actually occurs.  We found that a lack of current policies and procedures, unclear expectations, and insufficient accountability contribute to the monitoring problems.
Some fiscal monitoring controls are also weak.  Quarterly financial reports, which are often untimely and inaccurate, are not routinely reviewed or corrected.  The OC lacked a systematic approach to following up on one grantee's identified deficiencies.  Additionally, grantees do not submit financial reports by fund source, even though they must account for each source separately.
Incomplete official grant files continue to be a problem in OJP.  All the files we reviewed were missing some required documents.  Those documents are needed to record the activity of each grant.  All OJP participants in the SafeFutures program appear to bear some responsibility for the incomplete files.
The details of our work are contained in the Findings and Recommendations section of the report.  Our objectives, scope, and methodology are contained in Appendix II.  Grantee program descriptions can be found in Appendix III.